No.

In the Supreme Court of the United States
CONSTANTIN CHEESE, ANDRE BARNABY, BRANDON DARBY,
ANTONIO DAVIS, AVERY MITCHELL, NAHJUAN PERRY,
PIERRE RAYMOND, JAMES ROBERSON, AND SHAMEL SIMPKINS,
Petitioners,
v.
UNITED STATES OF AMERICA,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

CERTIFICATE OF SERVICE
I hereby certify that on this 7th day of September, 2021, three (3) copies of the
Brief for the Petition for a Writ of Certiorari with Appendix in the abovecaptioned cases were served, as required by U.S. Supreme Court Rule 29.5(b),
via United States First-Class Mail on each party required to be served, with
copies sent by email. The name and address of the party served is as follows:
Brian H. Fletcher, Acting Solicitor General
U.S. DEPARTMENT OF JUSTICE
OFFICE OF THE SOLICITOR GENERAL
950 Pennsylvania Avenue, NW, Room 5616
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
/s/ Nicolas Bourtin
Nicolas Bourtin
SULLIVAN & CROMWELL LLP
125 Broad Street
New York, NY 10004
(212) 558-4000
bourtinn@sullcrom.com
September 7, 2021

